PROOF OF SERVICE
No. TBD
Jason Edward Rheinstein
Petitioner
V.

Attorney Grievance Comm'n. of Maryland,
Respondent

I hereby declare and affirm that:
On this 7th day of June, 2019, a copy of Petitioner's Application for
Extension of Time to File a Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit was served on all parties
required to be served, by mailing a true and correct copy of the same via
first class mail, postage prepaid, for delivery at the following address:
Michele J. McDonald
Assistant Attorney General
Office of the Maryland Attorney General
200 St. Paul Place, 20th Floor
Baltimore, MD 21202
Attorney for Respondent
and by emailing a copy of same to

,Jason Edward Rheinste
Petitioner

T

